      LEGAL SERVICES CORPORATION
      OFFICE OF INSPECTOR GENERAL




       REVIEW OF GRANTEE'S
        TRANSFEROFFUNDS
      AND COMPLIANCE WITH
   PROGRAM INTEGRITY STANDARDS




     II"            LSC
Grantee: Legal Aid Society of Greater Cincinnati
            Recipient No. 436040

               Report No. 04-01

                 January 2004
                                                                                Legal Services Corporation
                                                                                Office of lnspector General




                                                     January 29,2004

Ms. Mary Asbury
Executive Director
Legal Aid Society of Greater Cincinnati
215 East Ninth Street
Cincinnati, Ohio 45202

Via Fax: (513) 241-7871 and FEDEX

Dear Ms. Asbury:

Enclosed is our final report Legal Aid Society of Greater Cincinnati's compliance with
the program integrity requirements of 45 CFR Part 1610. Your comments on the draft
report are included as Appendix I. The final report contains two recommendations.

Your response to the draft report indicates that you generally concurred with the finding
and the first recommendation regarding training. You disagreed with implementing the
second recommendation to revise your "Standards on Practice and Supervision." Your
comments indicate that you implemented the first recommendation and took alternative
action that met the intent of the second recommendation. The recommendations will
remain open until we receive a corrective action plan documenting the corrective action
taken. Please provide us with the plan within 30 days of the date of this report.

A copy of this report is also being sent to the Chair of the Board of Directors of your
program and to LSC management.

Thank you and your staff for the courtesy and cooperation extended to the audit team.
Please contact David Young at 202-295-1662 or me at 202-295-1651 if you have any
questions.

                                                     Sincerely,


                                                a/&  Leonard J. Koczur
                                                     Acting lnspector General

  Enclosure

 cc:    Randi Youells, Vice President for Programs
        Legal Services Corporation

        Paul W. Heldman, Chairman of the Board,
        Legal Aid Society of Greater Cincinnati
      LEGAL SERVICES CORPORATION
      OFFICE OF INSPECTOR GENERAL




         REVIEW OF GRANTEE'S
          TRANSFEROFFUNDS
         AND COMPLIANCE WITH
  PROGRAM INTEGRITY STANDARDS




     II"            LSC
Grantee: Legal Aid Society of Greater Cincinnati
            Recipient No. 436040

               Report No. 04-01

                 January 2004
                www.oig.lsc.~ov
                                  TABLE OF CONTENTS


                                                                                                        Page

RESULTS OF AUDIT .................................................................................... 1
        CLAIMS FOR ATTORNEY'S FEES ........................................................ 1
        RECOMMENDATIONS .......................................................................... 2

SUMMARY OF THE GRANTEE'S COMMENTS ON THE
DRAFT REPORT AND THE OIG'S RESPONSE................................... 3

BACKGROUND ............................................................................................. 4

OBJECTIVES. SCOPE and METHODOLOGY ...................................... 5

APPENDIX I .Grantee Comments                            ..................................................... 1 .1
APPENDIX II .OIG On-Site Audit Team                              .........................................11 .1
                            RESULTS OF AUDIT

The Legal Services Corporation (LSC) Office of Inspector General (OIG)
conducted this audit to determine whether the Legal Aid Society of Greater
Cincinnati (grantee) complied with certain requirements of 45 CFR Part 1610.
This regulation requires grantees to maintain objective integrity from any
organization that engages in activities prohibited by the LSC Act, LSC
appropriations acts and LSC regulations. To do so, grantees must be legally
separate from such organizations, not transfer LSC funds to them, not subsidize
any restricted activities with LSC funds, and maintain physical and financial
separation from them. An exception applies for transfers of LSC funds solely for
private attorney involvement (PAI) activities.

The audit provides reasonable, but not absolute, assurance that the Legal Aid
Society of Greater Cincinnati (grantee) complied with Part 1610 between July 1,
2001 and April 30,2003, the period covered by our review.

Although we found no violations of the program integrity regulation, in two cases
grantee attorneys claimed attorneys' fees in violation of the LSC regulation and
grantee policy. The fees were not collected in either case.

Recommendations for corrective action related to attorney's fees are on page 2.
The grantee's response provides a basis for considering the recommendations
resolved. However, the grantee needs to provide the OIG with documentation
supporting its actions to resolve the recommendations. Therefore, the
recommendations remain open.


Claims for Attorneys' Fees

The grantee claimed attorneys' fees in two of 49 cases we reviewed, for the
period July 1, 2001 through December 31, 2002. LSC regulation 45 CFR Part
1642, Attorneys' Fees, and the grantee's policy on attorneys' fees prohibit the
grantee or its employees from claiming, or collecting and retaining attorneys'
fees.

In the first case, Sweeten vs. lleslamlou, the grantee's senior attorney who
drafted the pleading that requested attorneys' fees stated that she could not
recall why she requested attorneys' fees. The senior attorney stated that she
was fully aware of the prohibition against claiming attorneys' fees and agreed
that the request for attorneys' fees violated LSC and grantee prohibitions. The
Executive Director stated that the case was filed in July 2001 but the court was
unable to serve the opposing party. The case was dormant until the court
dismissed it in July 2002 for want of prosecution. The Executive Director
provided a copy of the court's dismissal order and stated that the grantee is no
longer pursuing the case and will close it. The case will not go to trial and
attorneys' fees will not be collected.

The second case, Moore vs. Mitchell, was co-counseled with a private attorney.
In this case, the private attorney drafted the amended complaint and, as part of
joining the case as co-counsel, included a general request for attorneys' fees.
The case was settled without going to court and no attorney fees were collected.

The grantee's attorney stated that he was aware of the LSC and grantee
prohibitions against claiming attorney's fees. He reviewed the amended
complaint but missed the fact that the request for fees was not limited to the
private attorney. Other grantee co-counseling cases showed that the requests
for attorneys' fees typically were phrased to "request fees for the private attorney
only."

The grantees' policy on attorneys' fees mirrors LSC regulations and clearly
prohibits claiming, accepting and retaining attorneys' fees. However, the
grantee's April 2001 "Standards of Practice and Supervision," encourages
attorneys to (a) consider the availability of attorneys' fees, and (b) specifically
explore the availability of attorneys' fees.

These instructions provide conflicting advice to grantee attorneys in light of the
clear prohibition stated in the grantee's policy and LSC regulation. The
references in the standards of practice should be amended to clearly state that
neither the grantee nor its attorneys may claim, or collect and retain attorneys'
fees.

The two cases claiming attorneys' fees and the advice provided in the "Standards
of Practice and Supervision" indicate that the grantee needs to reinforce with its
staff the prohibition on claiming, or collecting and retaining attorneys' fees.

Recommendations:

We recommend that the Executive Director:

1.     Conduct a formal training session with attorneys and paralegals
concerning the LSC regulation and grantee policy that prohibit claiming, or
collecting and retaining attorneys' fees.

2.     Revise "Chapter X. Pleadings - Civil Actions," of the "Standards of
Practice and Supervision" to state that neither the grantee nor its employees may
claim, or collect and retain attorney's fees.
SUMMARY OF GRANTEE'S COMMENTS ON THE DRAFT REPORT AND THE
                      OIG'S RESPONSE


Grantee's Comments

The grantee generally agreed with our finding and the grantee states that it has
implemented the first recommendation. The grantee disagreed with our second
recommendation that its "Standards of Practice and Supervision" should be
revised to recognize LSC's regulation against claiming, or collecting and retaining
attorney's fees. The grantee stated that it sees no conflict between its standards
of allowing its attorneys to consider and explore the availability of attorney's fees
and LSC's restrictions on attorney's fees, because LSC's restrictions are
addressed in other grantee documentation. In lieu of adopting our second
recommendation, the grantee revised its "Standards of Practice and Supervision"
to cross-reference them to LSC's regulations. The grantee's comments in their
entirety are in Appendix I.


OIG Response

We disagree with the grantee's assertion that there is no conflict between its
"Standards of Practice and Supervision" and LSC's regulation on claiming, or
collecting and retaining attorney's fees. While the grantee can investigate the
availability of attorney's fees, it must do so with the clear understanding that such
fees cannot be claimed, or collected and retained. This clear restriction on
attorney's fees was missing from the grantee's written guidance that authorizes
its staff to investigate the availability of attorney's fees. Our recommendation
would correct this problem. The grantee did not implement the recommendation
but took alternative action which met the recommendation's intent and should
correct the problem.

The recommendations will remain open pending receipt of a corrective action
plan documenting the corrective action taken and the dates it was taken. The
plan is due no later than 30 days from the date of this report.
The Legal Aid Society of Greater Cincinnati (grantee) is a nonprofit corporation
organized to provide legal services to indigent individuals who meet LSC
eligibility guidelines. The grantee serves five counties in Ohio and is
headquartered in Cincinnati with another full-service office in Hamilton. At the
time of our audit, the grantee was staffed with 32 attorneys, 10 paralegal
advocates, and 31 other employees who provide administrative services and
initial intake screening. In Brown County, where the grantee does not have a full-
time presence, the grantee contracts with private attorneys there to provide LSC-
eligible clients with legal representation on a reduced fee basis. In addition, the
grantee provides administrative assistance to the Volunteer Lawyers Project and
assigns cases to private attorneys who are participants. The Volunteer Lawyers
Project is a joint lawyer referral project of the grantee and three local bar
associations. No LSC funds are used to support the grantee's involvement with
the Volunteer Lawyers Project.

On November 1, 1999, the grantee, through its wholly-owned subsidiary,
Community Law Center Real Estate Company, purchased the building it currently
occupies in Cincinnati. The wholly-owned subsidiary is supported by non-LSC
funds and leases space to the grantee and other organizations, including a law
firm that engages in activities restricted and prohibited by LSC. The relationship
between the grantee and this law firm is that of lessee and lessor and does not
violate LSC's program integrity standard. The grantee pays less than market
rent while the other lessors pay market rents for their space.

The grantee received total funding of over $5.4 million during the fiscal year
ended December 31, 2002. LSC provided about $1.46 million which was about
26.8 per cent of total funds received by the grantee during the year.
             OBJECTIVES, SCOPE, AND METHODOLOGY
The audit assessed whether the grantee complied with requirements established
in 45 CFR Part 1610 relating to the transfer of funds to other organizations and
program integrity standards.

Our review covered the period July 1, 2001 through April 30, 2003. We began
our audit work in May 2003, and visited the grantee's offices in Cincinnati and
Hamilton, Ohio during the period from June 16, 2003 through June 26, 2003. At
LSC headquarters in Washington D.C., we reviewed materials pertaining to the
grantee including its Certifications of Program Integrity, audited financial
statements, grant proposals, and recipient profile. OIG staff also discussed
issues relating to the grantee with LSC management officials.

During the on-site visit, we interviewed and collected information from the
Executive Director, case handlers, and other staff. We ascertained whether the
grantee's employees were generally knowledgeable regarding the guidelines set
forth in Part 1610. The audit included an assessment of the grantee's policies
and procedures applicable to the transfer of funds to other organizations and
program integrity requirements.

We gained an understanding of the client intake process used by the grantee.
We identified the grantee's controls regarding its oversight of its Private Attorney
Involvement program. The grantee PA1 program has two elements: a pro-bono
volunteer lawyers program in the counties of Hamilton, Warren, Brown and
Clermont, and a reduced-fee, contract attorney program in Brown County. We
interviewed two private attorneys who are closely involved with the grantee's
assignment of cases through the Volunteer Lawyers Project to discuss their
involvement with the grantee and the Volunteer Lawyers Project. We also
interviewed two other private attorneys. One attorney is a tenant to the grantee
and a participant in the Volunteer Lawyers Project, and the other attorney
subleases space in the grantee's building and is a co-counsel for three of the
grantee's cases. No LSC funds were used to support the PA1 program and no
program integrity issues were identified.

We identified and reviewed case files for cases that had been filed in court to
determine if the grantee had engaged in any restricted or prohibited activity. The
case files were reviewed with the Executive Director. We also discussed the
circumstances of the two attorneys' fees cases with the Executive Director and
the two attorneys who were responsible for the cases.

We assessed the process used by the grantee to allocate direct and indirect
costs to LSC and non-LSC funds. Policies and procedures relating to payroll and
timekeeping were evaluated. The grantee's employees were interviewed to
determine their understanding of the process. We reviewed the grantee's
financial accounts for vendors including contractors, employees, and consultants.
We selected 65 commercial vendors (including 38 attorneys) and 7 current and 3
former employees for a detailed review of their activity during our audit period.
Fifty-seven of the commercia[ vendors and 10 of the current or former employees
had activity during the audit period. From these 67 files we reviewed 287
transactions totaling over $596,000.

All agreements between the grantee and other organizations and individuals
were requested. We reviewed all materials provided, including grant funding
instruments, leases, and contracts.

We performed the audit in accordance with Government Auditing Standards
established by the Comptroller General of the United States and under authority
of the Inspector General Act of 1978, as amended and Public Law 107-77,
incorporating by reference Public Law 104-134.
                                   LEGAL SERVICES I N BROWN. BUTLER. CLERMONT. HAMILTON AND WARREN COUNTIES




                                                                         November 11,2003
DONALD P. KLEKAMP
 COMMUNITY LAW
 CENTER BUILDING

  2 15 East Ninth S t      Mr Leonard J. Koczur
           Suite 200       Acting Inspector General
    Cincinnati, Ohio
               45202       Legal Services Corporation
                           3333 K Street, NW,3"' Floor
             Telephone     Washington, DC 20007-3522
      (5 1 3) 24 1 -9400
              Facsimile            RE:      Comments on OIG Draft Audit Report
      (5 1 3) 24 1-0047
                TDD        Dear Mr. Koczur:
      (513) 241-6061

                                The Legal Aid Society of Greater Cincinnati (LASGC) submits the following
       Long Distance       comments regarding the report and recommendation of the Office of Inspector G e n d .
      1-800-582-2682
                                   First, we appreciate the finding that LASGC complied with §1610, the program
                           integrity regulation, during the time period examined during the audit.
         HAMILTON                  On the issue of Claims for Attorneys' Fees: LMGC concurs that in one case a
                           grantee attorney made a claim for attomeys' fees in an initial complaint for relief; this
                           violated LSC regulations as well as LASGC policy. As noted in the OIG report, LASGC's
                           policy:
            Telephone
      (5 1 3) 24 1 -9400
                                   "mirrors LSC regulations and clearly prohibits claiming, accepting and
             Facsimile             retaining attorneys' fees."
      (5 13) 894-7669

                                   We do not agree that the language in LASGCYsStandards of Practice and
                           Supervision, instructing attorneys to (a) consider the availability of attorneys' fees, and (b)
   APPOINTMENTS            specifically explore the availability of attorneys' fees, constitutes conflicting advice. As
      AVAILABLE            discussed during the site visit, it is our view that the Standards of Practice have a particular
                           purpose, that is, they serve as a checklist and guide for highquality and ethical practice of
               Batavia
                           law. LASGC does not weave in the LSC regulatory restrictions, or grant conditions
           Cincinnati
                           applicable to LSC and other funds. However, these restrictions and conditions are clearly
        Georgetown         set out in other documents, and are the subject of staff trainings and reminder memos to
            Hamilton       ensure, to the maximum extent possible, compliance with. all applicable rules and
             Lebanon       regulations.
         Middletown
                                 The attorneywho drafted the faulty complaint stated that she was well aware of the
                           LSC regulation and Legal Aid policy prohibiting attorneys' fees, and that she could not
Mr. Leonard J. Koczur
Page 2
November 11,2003



account for her error in including the claim. During the on-site visit, auditors examined the
pleadings in her other pending cases; none contained a claim for fees. LASGC doubts that the
Standards of Practice contributed to this error. Both the attorney involved and LASGC management
regret that this error o c c d .

        In the second instance cited, a private attorney co-counsel draftedthe complaint, and included
a claim for fees. At this stage of the case, it was ambiguous whether a claim for fees was made on
behalf of LASGC,and given our clear policy prohibiting such,ac:srim, we we certain that this would
not have occurred, had a motion for fees ever been filed. We do agree that the better practice is to
clearly state that fees are sought only for private counsel. That is our current policy, and we have
issued a memorandum to LASGC attorneys addressing this, and other issues, with respect to co-
counseled cases.

        Regarding the Recommen&tions: We concur with the recommendation for training. The
Executive Director conducted a training for all attorney and paralegal stafX'in July, 2003, covering
the LSC restrictions, with special emphasis on the attorney fee and co-counseling issues. We will
continue to conduct orientation training, and periodic training for experienced attorneys, covering
these issues.

        LASGC agreesthat it could be helpfil to cross-reference the Standards of Practiceprovision
with the applicableLASGC policy regardingclaims for attorneys' fees, and we have revised Chapter
X of the Standards of Practice to add the following language:

         "If attorneys fees or damages may be available, considerationof Legal Aid's policies
         on fee-generating cases, and the policies and practice guidelinesregarding claims for
         attorneys fees, and procedure in co-counseled cases must be considered and
         followed."

         Thank you for the opportunity to comment on the draft report.

                                                            Sincerely,




                                                            Executive Director
                                                            Direct-Dial (513) 362-2800

Wpaa


C:\CorclWenionsUSC\OIG Audit-June 03UAS response 1 lnov03
                                                APPENDIX II

                       OIG On-Site Audit Team


David Young (Auditor-in-Charge)

Chris Aballe

Amelia Laguilles

Abel Ortunio
